*

CERTIFICATE of SERVICE
This is to certify that a copy of the foregoing “Petition for Writ of Certiorari...” was served via
United States Mail on or about September 20, 2021 to:
Elizabeth Warren and/or Assigns
Clerk of Court
Sam M Gibbons United States Courthouse
801 North Florida Avenue, Rm 218
Tampa, Florida 33602

Mr. David J. Smith
Clerk of Court
U.S. Court of Appeals for the 11th Circuit
56 Forsyth St, N.W.
Atlanta, GA 30303

Mr. Merrick B. Garland
United States Attorney General
Department of Justice
950 Pennsylvania Ave. NW
Washington, D.C. 20530

Judge Mary S. Scriven
c/o Clerk of Court
Sam M Gibbons United States
Courthouse
801 North Florida Avenue, Rm 218
Tampa, Florida 33602

Ms. Karin Hoppmann
Acting United States Attorney
Middle District of Florida
U.S. Attorney's Office
400 North Tampa Street
Suite 3200
Tampa, Florida 33602

Jeremy A. Rill
Trial Attorney, Tax Division
U.S. Department of Justice
P.O. Box 14198
Washington, D.C. 20044

Richard T. Avis, Esq., and
Yaron David
c/o Law Offices of Richard T. Avis
200 2nd Avenue S., #454
St. Petersburg, FL 33701

Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001

'//7
By:
-''Gregory Dai'st

Darst Petition for Certiorari to 11th Circ. To Terminate Practice of courts of appeal REFUSING to
ADDRESS EVERY ISSUE RAISED, and to Re-Enter Coram Nobis Motion into Crim Case, & Etc. Pg. 20

CERTIFICATE OF COMPLIANCE

No.

GREGORY A DARST,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent

As required by Supreme Court Rule 33.1(h), I certify that the petition for
a writ of certiorari contains 4,746 words, excluding the parts of the
petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 20, 2021,

Vi

Gregory A. Darst

